        AUDIT OF THE OFFICE OF
COMMUNITY ORIENTED POLICING SERVICES
     TECHNOLOGY PROGRAM GRANT
           AWARDED TO THE
    SHERWOOD POLICE DEPARTMENT
         SHERWOOD, OREGON


       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


      Audit Report GR-90-11-006
           September 2011
                 AUDIT OF THE OFFICE OF
         COMMUNITY ORIENTED POLICING SERVICES
              TECHNOLOGY PROGRAM GRANT
                    AWARDED TO THE
             SHERWOOD POLICE DEPARTMENT
                  SHERWOOD, OREGON

                        EXECUTIVE SUMMARY

       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services’ (COPS) Technology Program Grant 2009-CK-WK-0303, in
the amount of $250,000, that was awarded to the Sherwood Police
Department (Sherwood), located in Sherwood, Oregon. The purpose of the
grant was to assist Sherwood in establishing a local interoperable wireless
communications network. The purpose of establishing such a network was
to improve Sherwood’s capability in transferring digital images and video, as
well as allow police officers to query remote databases to obtain essential
information that would otherwise be unavailable in mobile police units. Also,
the interoperable wireless communications network was intended to facilitate
Sherwood’s need to transfer information between other local departments
and enable communication with other public safety agencies that would not
be possible through dispatch systems.

      COPS was established by the Violent Crime Control and Law
Enforcement Act of 1994 and it is responsible for advancing the practice of
community policing, which promotes the partnership between communities
and law enforcement agencies to proactively reduce crime and to create and
foster a safer environment. COPS Technology Program grants provide
funding for the continued development of technologies and automated
systems to assist state, local, and tribal law enforcement agencies in
investing, responding to, and preventing crime. This funding allows
recipients the opportunity to establish and enhance a variety of technical
equipment or programs to encourage the continuation and enhancement of
community policing within their jurisdictions. Since Fiscal Year 1999, COPS,
through its Technology Program, has awarded $1.53 billion to state and local
law enforcement agencies to support the development of technologies and
assist investigations and prevent crime.

      The purpose of our audit was to determine whether costs under Grant
2009-CK-WX-0303 were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) program
income; (4) expenditures including payroll, fringe benefits, indirect costs,
and accountable property; (5) matching; (6) budget management;
(7) monitoring of sub-recipients and contractors; (8) reporting;
(9) compliance with additional grant requirements; (10) program
performance and accomplishments; and (11) post end date activity. We
determined that program income, personnel costs, indirect costs, matching,
monitoring of sub-recipients and contractors, and post end date activity
were not applicable to this grant.

      We examined Sherwood’s accounting records, financial and progress
reports, and operating policies and procedures and found the following:

     •   Sherwood’s Delegation of Contracting Authority was outdated
         because it inaccurately identified the purchasing authorization levels
         of the Chief of Police and Information Technology Director; and

     •   Sherwood lacked a comprehensive implementation plan to
         accomplish its grant goal (the establishment of an interoperable
         wireless communications network) before the grant end date of
         March 2012.

      Based on the findings related to Sherwood, we made two
recommendations to COPS. These items are discussed in detail in the
Findings and Recommendations section of the report. Our audit objective,
scope, and methodology are discussed in Appendix I. We discussed the
results of our audit with officials from Sherwood, and have included their
comments in the report, as applicable. In addition, we requested from
Sherwood and COPS written responses to our draft report, which we
received and are included in Appendices II and III, respectively. Our
analysis of each recommendation and proposed corrective action is
discussed in Appendix IV.




                                     - ii -
                                    TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1
      Background .......................................................................... 2
      Audit Approach ..................................................................... 3

FINDINGS AND RECOMMENDATIONS........................................ 5
      Internal Control Environment .................................................. 5
      Drawdowns .......................................................................... 6
      Expenditures ........................................................................ 7
      Budget Management .............................................................. 8
      Reporting ............................................................................. 8
      Compliance with Additional Grant Requirements .......................10
      Program Performance and Accomplishments ............................10
      Conclusion ...........................................................................14
      Recommendations ................................................................14

APPENDICES:

I.    OBJECTIVE, SCOPE, AND METHODOLOGY ...............................15
II.   GRANTEE RESPONSE ............................................................17
III. DEPARTMENT OF JUSTICE RESPONSE .....................................28
IV. OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
       SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ...39
                  AUDIT OF THE OFFICE OF
          COMMUNITY ORIENTED POLICING SERVICES
               TECHNOLOGY PROGRAM GRANT
                     AWARDED TO THE
              SHERWOOD POLICE DEPARTMENT
                   SHERWOOD, OREGON

                                INTRODUCTION

       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services’ (COPS) Technology Program Grant 2009-CK-WX-0303, in
the amount of $250,000, that was awarded to the Sherwood Police
Department (Sherwood), located in Sherwood, Oregon. The purpose of the
grant was to assist Sherwood in establishing a local interoperable wireless
communications network. The purpose of establishing such a network was
to improve Sherwood’s capability in transferring digital images and video, as
well as allow police officers to query remote databases to obtain essential
information that would otherwise be unavailable in mobile police units. Also,
the interoperable wireless communications network was intended to facilitate
Sherwood’s need to transfer information between other local departments
and enable communication with other public safety agencies that would not
be possible through dispatch systems. As of December 7, 2010, Sherwood
had expended $57,518 of the award.

                            EXHIBIT 1
     COPS TECHNOLOGY PROGRAM GRANT AWARDED TO SHERWOOD
                        Award         Award
       Grant Award    Start Date   End Date 1 Award Amount
     2009-CK-WX-0303            03/11/09         03/10/12                    $250,000

                                                   Total:                    $250,000
   Source: COPS

      The purpose of our audit was to determine whether costs claimed
under Grant 2009-CK-WX-0303 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;

     1
         The Award End Date includes all time extensions approved by COPS.
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) compliance with additional grant requirements;
(10) program performance and accomplishments; and (11) post end date
activity. We determined that program income, personnel costs, indirect
costs, matching, monitoring of sub-recipients and contractors, and post end
date activity were not applicable to this grant.

Background

      The city of Sherwood is located approximately 16 miles southwest of
Portland, Oregon. According to the U.S. Census Bureau, as of 2009, the city
of Sherwood had an estimated population of 17,930. As of August 2011,
Sherwood had a force of 23 sworn police officers. According to the Federal
Bureau of Investigation’s Uniform Crime Report, Sherwood reported
11 violent crimes and 223 property crimes for 2009. 2 Sherwood’s crime rate
was lower than both the average state and national crime rates. For
instance, Sherwood’s violent crime rate in 2009 was 77 percent lower than
the violent crime rate in the state of Oregon and 86 percent lower than the
national violent crime rate. Likewise, Sherwood’s property crime rate was
59 percent lower than the state and 60 percent lower than the national
crime rates. 3

       COPS was established by the Violent Crime Control and Law
Enforcement Act of 1994 and it is responsible for advancing the practice of
community policing, which promotes the partnership between communities
and law enforcement agencies to proactively reduce crime and to create and
foster a safer environment. COPS Technology Program grants provide
funding for the continued development of technologies and automated
systems to assist state, local, and tribal law enforcement agencies in
investing, responding to, and preventing crime. This funding allows
recipients the opportunity to establish and enhance a variety of technical
equipment or programs to encourage the continuation and enhancement of
community policing within their jurisdictions. Since its establishment in
Fiscal Year (FY) 1999 through November 2010, COPS, through its
Technology Program, has awarded $1.53 billion to state and local law
enforcement agencies to support the development of technologies and assist
investigations and prevent crime.

       2
           According to http://www2.fbi.gov, violent crime includes murder, manslaughter,
forcible rape, robbery, and aggravated assault.
       3
         Sherwood’s 2009 violent crime rate per 10,000 people was 6, while the state of
Oregon’s was 26, and the national violent crime rate was 43. Sherwood’s property crime rate
per 10,000 people was 123, while the state of Oregon’s was 297, and the national property
crime rate was 304.


                                            -2-
      Sherwood’s goal for the grant was to develop an interoperable wireless
communications network within Sherwood that would also be made available
to other public safety agencies in the county. Sherwood planned to
purchase and install a fiber optic cable that would provide connectivity
between Sherwood and its communications utility company, the Washington
County Consolidated Communications Agency. Sherwood believed that its
dispatching system and the computers in each of its police cars would
benefit from the high-speed connection by improving the transfer of
information between Sherwood’s departments and enable communication
with other local public safety agencies — something that could not be
accomplished with Sherwood’s existing dispatch system. In addition,
Sherwood planned to purchase and install wireless video cameras in order to
allow monitoring for potential criminal activity within schools and at parks.
Once operational, Sherwood police officers would be able to view streaming
video, download digital images, and query databases for essential
information that would otherwise be unavailable in mobile units.

Audit Approach

      We tested Sherwood’s compliance with what we consider to be the
most important conditions of the grant award. Unless otherwise stated in
our report, the criteria we audited against were contained in the COPS 2009
Technology Grant Owner’s Manual, award documents, Code of Federal
Regulations, and Office of Management and Budget (OMB) Circulars.
Specifically, we tested:

     •   Internal Control Environment – to determine whether the
         internal controls in place for the processing and payment of funds
         were adequate to safeguard the funds awarded to Sherwood and
         ensure compliance with the terms and conditions of the grant.

     •   Drawdowns – to determine whether drawdowns were adequately
         supported and if Sherwood was managing receipts in accordance
         with federal requirements.

     •   Expenditures – to determine whether costs charged to the grant
         were accurate, adequately supported, allowable, reasonable and
         allocable. In addition, we tested expenditures related to the
         purchase of accountable property and equipment to determine
         whether Sherwood recorded accountable property and equipment in
         its inventory records, identified it as federally funded, and utilized
         the accountable property and equipment consistent with the grant.




                                     -3-
     •   Budget Management – to determine whether there were
         deviations between the amounts budgeted and the actual costs for
         each category.

     •   Reporting – to determine if the required financial and
         programmatic reports were submitted on time and accurately
         reflected grant activity.

     •   Compliance with Additional Grant Requirements – to
         determine whether Sherwood complied with award guidelines and
         special conditions.

     •   Program Performance and Accomplishments – to determine
         whether Sherwood made a reasonable effort to accomplish stated
         objectives.

      The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. We discussed the results of our
audit with Sherwood officials and have included their comments in the
report, as applicable. Our report contains two recommendations to COPS.
The audit objective, scope, and methodology are discussed in Appendix I.




                                    -4-
                       FINDINGS AND RECOMMENDATIONS

               Overall, we found that Sherwood adequately
               maintained grant-related financial records and
               properly managed the use of grant funds. However,
               the city of Sherwood’s Delegation of Contracting
               Authority was outdated because it included an
               inaccurate level of purchasing authority for the Chief
               of Police and Information Technology Director.
               Additionally, Sherwood lacked a comprehensive
               implementation plan for how it planned to complete
               the installation of the interoperable wireless
               communications network before the grant expired.

Internal Control Environment

       We reviewed the policies and procedures, Single Audit Report, and
financial management system for the city of Sherwood, Oregon, which
included the police department, to assess the risk of noncompliance with
laws, regulations, guidelines, and terms and conditions of the grant. We
also interviewed individuals from Sherwood’s grants management staff as
well as the city’s accounting and finance staffs regarding internal controls
and processes related to payroll, purchasing, and accounts payable
functions. We also observed the financial management system, as a whole,
to further assess risk.

      Our review of any potential internal control issues disclosed in the
Single Audit Report or found in our review of the city of Sherwood’s financial
management system are discussed below in the Single Audit and Financial
Management sections, respectively. During our audit, we noted that
Sherwood’s Information Technology Director and Chief of Police had
approved purchases in excess of $2,500. However, the city of Sherwood’s
Delegation of Contracting Authority identified both of these positions
(Chief of Police and Information Technology Director) as having approval
authority for purchases up to $2,500. 4 When we asked Sherwood officials
about the inconsistency between the purchases that were approved and the
levels of approving authority, Sherwood officials stated that the Delegation
of Contracting Authority was outdated and that it did not properly identify
the Information Technology Director or the Chief of Police at the proper
approving level. Therefore, we recommend that COPS ensure that the


       4
           The City of Sherwood’s Delegation of Contracting Authority is a document that
identifies the purchasing authorization levels of personnel at different positions, including the
City Manager, directors, and managers.


                                              -5-
city of Sherwood update its Delegation of Contracting Authority to make it
current, complete, and accurate.

Single Audit

      According to OMB Circular A-133, non-federal entities that expend
$500,000 or more in federal awards in a year shall have a Single Audit
conducted. At the start of our fieldwork, the most recent Single Audit
available for the city of Sherwood was for FY 2010. 5 We reviewed the city of
Sherwood’s FY 2010 Single Audit Report and found that the independent
auditors had issued an unqualified opinion and had no findings.

Financial Management System

      According to 28 C.F.R. Part 66, Uniform Administrative Requirements
for Grants and Cooperative Agreements to State and Local Governments,
§ 66.20 requires that grantees and subgrantees meet the standard of
accurate, current, and complete financial reporting, and must maintain
accounting records which adequately identify the source and application of
federal awards. In addition, these standards require that “effective control
and accountability must be maintained for all grant and subgrant cash, real
and personal property, and other assets.” In addition, the COPS 2009
Technology Program Grant Owner’s Manual requires that a grantee’s
financial records “must reflect expenditures for each grant project
separately.”

      We found that Sherwood adequately maintained grant-related financial
records and data. Sherwood utilized an accounting system entitled Navision.
Based on our overall review of grant-related transactions that were recorded
in Sherwood’s accounting system, we found that the system accurately
recorded grant-related receipts and expenditures. Further, Sherwood
separately tracked all grant-related receipts and expenditures using a unique
code. The financial management system provided for proper segregation of
duties, transaction traceability, system security, and limited access.

Drawdowns

      According to the COPS 2009 Technology Program Grant Owner’s
Manual, grant recipients should request funds based upon immediate
disbursement needs to ensure that federal cash on hand is the minimum
needed for disbursements or reimbursements to be made immediately or
within 10 days. We compared Sherwood’s expenditures to its actual

     5
         The City of Sherwood’s fiscal year is from July 1 through June 30.


                                            -6-
drawdowns and found that Sherwood drew down grant funds on a
reimbursement basis.

Expenditures

       We reviewed Sherwood’s grant-related accounting records and found
that as of December 7, 2010, it contained a total of four transactions
totaling $57,518. All four transactions were for the purchase and installation
of equipment. We tested all four transactions to determine if they were
allowable, reasonable, properly authorized, and adequately supported. We
found that the expenditures were allowable, reasonable, properly authorized,
and adequately supported.

Accountable Property

      OMB Circular A-133 requires grantees to implement controls to ensure
property and equipment purchased with federal funds are properly
“safeguarded against loss from unauthorized use or disposition.” In
addition, according to 28 C.F.R. § 66.32, grantees are required to maintain
property records that include:

      . . . a description of the property, a serial number or other
      identification number, source of the property, property owner
      that holds title, acquisition date, cost of the property, percentage
      of federal participation in the cost of the property, location, use
      and condition of the property item, and any ultimate disposition
      data including the date of disposal and sale price of the property
      item.

      The COPS 2009 Technology Program Grant Owner’s Manual states that
“each grantee must use any equipment funded through a COPS award for
approved grant-related purposes and must retain the equipment for the life
of the grant. After the conclusion for the grant period, property records
must be maintained by the grantee.”

       As of the date of our fieldwork, December 11, 2010, Sherwood had
purchased a total of 16 laptop computers and paid for the installation of a
fiber optic cable to connect Sherwood’s wireless network to the Washington
County Consolidated Communications Agency. We verified that the laptop
computers were properly recorded in Sherwood’s inventory records and the
fiber optic cable in Sherwood’s fixed asset report. Further, we physically
verified all 16 laptop computers and found that they were being used for law
enforcement purposes. Regarding the fiber optic cable, we were unable to
physically verify it because it was buried underground. We did not consider


                                     -7-
this to be an exception as Sherwood recorded the fiber optic cable in its
fixed asset report.

      Although the equipment that Sherwood purchased with grant funds
was accounted for on Sherwood’s inventory records or its fixed asset report,
Sherwood failed to identify the equipment as being federally funded. During
our audit, Sherwood officials stated that they were unaware of this
requirement. Also, they stated that their inventory software lacked an area
on the report for identifying where the funding originated. However, at the
end of our fieldwork, Sherwood stated that it had corrected this issue.
Sherwood also provided to us its inventory records showing that the grant
funded equipment was designated as federally funded.

Budget Management

      According to 28 C.F.R. § 66.30, when an awarding agency’s share of a
grant exceeds $100,000, grantees are required to obtain prior approval from
the awarding agency for cumulative transfers among direct cost budget
categories that are expected to exceed 10 percent of the total approved
budget. Similarly, the COPS 2009 Technology Program Grant Owner’s
Manual allows for the “movement of dollars between approved budget
categories . . .or other budget modifications, up to 10 percent of the total
award amount, . . .provided that there is no change in project scope.” We
found that there were no budget deviations that required COPS’ approval.

Reporting

      According to the COPS 2009 Technology Program Grant Owner’s
Manual, award recipients are required to submit Federal Financial Reports
(FFR) and annual program progress reports to COPS. These reports describe
the status of the funds and the project, compare actual accomplishments to
the objectives, and report other pertinent information. We reviewed the
FFRs and the progress reports that Sherwood submitted to COPS and we
discuss our results in the following sections.

Federal Financial Reports

      The COPS 2009 Technology Program Grant Owner’s Manual requires
grantees to submit FFRs no later than 30 days after the end of each quarter.
We reviewed all four of the FFRs submitted at the time of our audit and
found that all four were submitted timely, as shown in Exhibit 2.




                                     -8-
                             EXHIBIT 2
                 FEDERAL FINANCIAL REPORT HISTORY
                             FFR DUE     DATE
        REPORTING PERIOD      DATE     SUBMITTED               DAYS LATE
       10/01/09 – 12/31/09      01/30/10        01/25/10          0

       01/01/10 – 03/31/10      04/30/10        04/08/10          0

       04/01/10 – 06/30/10      07/30/10        07/14/10          0

       07/01/10 – 09/30/10      10/30/10        10/07/10          0
    Source: COPS

      We also reviewed the four FFRs for accuracy and found that the
reports accurately reflected grant funded expenditures as shown in Exhibit 3.

                              EXHIBIT 3
                 FEDERAL FINANCIAL REPORT ACCURACY
                                        EXPENDITURES
                           EXPENDITURES   POSTED TO
                           RECORDED ON   ACCOUNTING
         REPORT PERIOD         FFR         RECORDS   DIFFERENCE
      10/01/09 – 12/31/09         $    2,506      $    2,506           $0

      01/01/10 – 03/31/10             45,012          45,012               0

      04/01/10 – 06/30/10             10,000          10,000               0

      07/01/10 – 09/30/10                   0              0               0
    Source: COPS and Sherwood

Progress Report

      According to a COPS official, progress reports are due annually once
COPS notifies the grantee. Upon notification, the grantee is to submit its
progress report within 30 days. As shown in Exhibit 4, the first progress
report submitted during our audit period was submitted 5 days late. The
grant manager told us that the report was late because he did not
understand the process for submitting progress reports. This issue has since
been resolved with Sherwood submitting its second progress report on time.
Therefore we do not believe this is a systemic problem and make no
recommendation.

      Both progress reports submitted were correctly filled out. Sherwood’s
implementation of the grant had only begun by the time the first progress
report was due. We noted that COPS’ progress report template did not
provide grantees the ability to give a full description of the status of the


                                      -9-
implementation of the grant. Also, at that time, Sherwood had only
purchased one laptop for a police vehicle. Therefore, it was too early in the
life of the project for Sherwood to be able to provide information on whether
the grant-funded project had improved the efficiency and effectiveness of
Sherwood’s police operations.

       The second progress report was submitted on time. During the
reporting period, Sherwood was still in the planning phase of the grant
project even if it had purchased some equipment. The equipment that
Sherwood purchased included an additional 15 laptop computers and the
installation of a fiber optic cable. The progress report for calendar year 2010
had a question regarding whether the grantee required programmatic
assistance to ensure successful implementation of the grant. Sherwood
answered “no” to this question. However, as we discuss in the Program
Performance and Accomplishments section of this report, we believe that
Sherwood’s answer was not accurate.

                             EXHIBIT 4
                      PROGRESS REPORT HISTORY
                                          DATE
          REPORT PERIOD     DUE DATE   SUBMITTED             DAYS LATE
       01/01/09 - 12/31/09       02/14/10      02/19/10           5

       01/01/10 - 12/31/10       01/30/11      01/28/11           0
     Source: COPS

Compliance with Additional Grant Requirements

      We reviewed Sherwood’s grant award documentation to identify any
additional special requirements that COPS placed upon Sherwood as a
condition of the grant award. We found that Sherwood generally complied
with the award’s additional special requirements.

Program Performance and Accomplishments

       According to the grant application, the main goal of the grant was to
develop an interoperable wireless communications network within the city
limits of Sherwood that would also be made available to other public safety
agencies for the purpose of sharing information. At the time of our audit,
Washington County Sheriff’s Office and the Tualatin Valley Fire and Rescue
planned to participate in Sherwood’s network. Tualatin Valley Fire and
Rescue serves the city of Sherwood and much of Washington County,
including the cities of Beaverton, Durham, King City, Rivergrove, Tigard,
Tualatin, West Linn, and Wilsonville, as well as unincorporated areas of


                                    - 10 -
Clackamas, Multnomah, and Washington Counties. Sherwood planned to
develop the interoperable wireless communications network by establishing
high speed wireless access points in strategic locations.

       At the completion of this project, Sherwood officials expected that its
law enforcement officers would have the ability to: (1) view and transfer
digital images and streaming video, and (2) remotely access and query
interdepartmental databases that otherwise would not be available to its
officers. Sherwood officials stated that the interoperable wireless
communications network will provide officers the ability to identify suspects
at traffic stops by making available to police officers digital images that are
stored in various departmental databases, or to view in real-time security
cameras installed at parks, schools, and public facilities. In addition, the
interoperable wireless communications network will facilitate the transfer of
information between other department units and enable communication with
other local public safety agencies, such as city and county fire and rescue
units.

      The original implementation plan that was included in Sherwood’s
grant application stated that the interoperable wireless communications
network would be implemented by August 2010. However, as of December
2010, the plan had not been fully implemented and the grant was scheduled
to end on March 10, 2012. As of December 2010, we found that Sherwood
completed its purchase of the laptop computers and fiber optic cable, which
is a necessary first step to achieving interoperability. However, a critical
area of the implementation plan, which included the establishment of
network access points, had not been installed at the time of our audit. As a
result, we concluded that the grant project was not on schedule.

      When the grant began, Sherwood planned to rely on a state-wide
wireless communication network for emergency services that was in the
process of being developed. Sherwood’s original plan called for it to build its
grant-funded connectivity based on the yet undeveloped state-wide wireless
communication network. However, the state-wide wireless communication
network for emergency services was dependent on receiving approval from
the Federal Communications Commission (FCC) to use a certain band of
frequencies in the wireless spectrum. When the FCC did not release these
frequencies for public use, the state-wide wireless communication network
plan fell through. This resulted in Sherwood having to re-evaluate how it
was going to complete its grant goal without the state-wide wireless
communication network.

      In December 2010, we asked Sherwood officials whether they had a
plan for how they were going to implement the remaining grant objectives.


                                    - 11 -
At that time, Sherwood did not have a plan for how it was going to complete
the grant project and its grant objectives. However, in February 2011,
Sherwood developed a new interoperable wireless communications network
plan which consisted of a list of tasks and benchmarks that it had developed.
Sherwood officials referred to this as their new implementation plan. This
new implementation plan was to utilize an off-the-shelf wireless technology
to establish their interoperable wireless communications network – similar to
a network setup that was already in place in Washington County. Sherwood
officials felt that they could easily duplicate what Washington County had
done.

     Specifically, Sherwood’s plan included the following tasks:

     •   complete the fiber optic cable connection between Sherwood and its
         communications utilities company, the Washington County
         Consolidated Communications Agency, by May 31, 2011; and

     •   select locations for the installation of wireless access points, to
         include cost and scheduling estimates.

      In addition, Sherwood’s plan included the following outcomes that
would provide Sherwood police cars with access to the following
applications:

     •   web-based cameras monitoring Sherwood High School and city
         parks,

     •   Sherwood’s interdepartmental records systems and email,

     •   Washington County Jail photographs and records, and

     •   high speed connection to Computer Aided Dispatch.

      We reviewed Sherwood’s implementation plan and found the plan to
be weak, lacking necessary detail such as when and how Sherwood would
accomplish its planned tasks. For example, the plan did not explain how
Sherwood would complete the fiber optic cable connection with the
Washington County Consolidated Communications Agency by May 31, 2011.
In addition, Sherwood’s plan lacked detail regarding how it would install
wireless access points throughout the city before March 2012. Therefore, we
believe that Sherwood’s plan is inadequate and lacks sufficient detail to
comprehensively describe how it will accomplish its grant goal before the
grant’s end date of March 10, 2012.



                                     - 12 -
      As a result of the significant changes to Sherwood’s approach in how it
planned to accomplish its grant project, we suggested to Sherwood officials
that they obtain COPS’ approval to use grant funds for a different
interoperable wireless communications network than what was originally
planned in its grant application. As of August 2011, Sherwood has not yet
provided to COPS its list of tasks and outcomes, or an implementation plan,
in an effort to seek COPS’ approval.

      In addition, COPS published a guide, entitled COPS Law Enforcement
Tech Guide, to help its grantees manage technology projects. We suggested
to Sherwood officials that they refer to the COPS Law Enforcement Tech
Guide as a resource that can help Sherwood plan, purchase, and manage
technology successfully.

     For example, the COPS Law Enforcement Tech Guide suggests:

     Once the scope has been sufficiently detailed and defined, it can
     be broken down into smaller elements or projects that produce
     specific deliverables. Dissecting scope in this manner is
     commonly referred to as a work breakdown structure (WBS).
     Each of these subcomponents of the scope must, obviously, be
     directly related to and descendent from the scope. Therefore, no
     activities that are outside of the scope of the project should be
     included in the WBS. Breaking the scope into manageable
     pieces begins to define activities and milestones that, once
     completed, will comprise the full project scope.

     Define which activities will produce the various project
     deliverables, determine their order and their dependence on one
     another, and how long each activity will take. By analyzing the
     appropriate activities, order and dependence, you will be able to
     create an actual schedule . . . and to control the schedule and
     any changes to it.

      Further, the COPS Law Enforcement Tech Guide suggests
that grantees develop a procurement plan. This includes
determining what equipment needs to be purchased, when it
must be purchased, which vendor will provide it, and identify the
cost of the equipment in order to achieve the grant goal of
interoperability.

       Sherwood’s implementation plan lacks some of the elements that the
COPS Law Enforcement Tech Guide suggests should be part of a grantee’s
effort to manage a technology project, such as a work breakdown structure,


                                   - 13 -
procurement plan, and project timeline. Based on our review of what
Sherwood has been able to accomplish and what still needs to be accomplish
to establish an interoperable wireless communication network, we are
concerned that Sherwood will not be able to complete its grant goal before
the grant end date. Further, over the past 8 months, Sherwood has not
made any progress on implementing its interoperable wireless
communications network; this too adds to our concern. Therefore, we
recommend that COPS ensure that Sherwood develop a comprehensive
implementation plan that will help it accomplish its grant goal of establishing
an interoperable wireless communications network before the grant end date
of March 10, 2012.

Conclusion

       Overall, we found that Sherwood adequately maintained grant related
financial records and data. We found that all of the expenditures were
accurate, supported, and allowable. However, we found that the city of
Sherwood’s Delegation of Contracting Authority was out of date and
therefore Sherwood’s Information Technology Director and Chief of Police
had exceeded their formal authority when making purchases above $2,500.
Also, we had concerns with Sherwood’s progress in achieving its grant goal
of establishing an interoperable wireless communications network. Based on
the progress made at the time we conducted our audit, along with a new yet
inadequate plan that it developed, we were concerned with Sherwood’s
ability to accomplish its grant goal before the grant end date.

Recommendations

      We recommend that COPS ensure that Sherwood:

      1.   Updates its Delegation of Contracting Authority to establish that
           the Information Technology Director and Chief of Police are
           authorized to approve purchases in excess of $2,500.

      2.   Develop a comprehensive implementation plan that will help it
           accomplish its grant goal of establishing an interoperable wireless
           communications network before the grant end date.




                                    - 14 -
                                                               APPENDIX I

               OBJECTIVE, SCOPE, AND METHODOLOGY

       The purpose of our audit was to determine whether costs claimed
under Grant 2009-CK-WX-0303 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) compliance with additional grant requirements;
(10) program performance and accomplishments; and (11) post end date
activity. We determined that program income, personnel costs, indirect
costs, matching, monitoring of sub-recipients and contractors, and post end
date activity were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

      Unless otherwise specified, our audit covered, but was not limited
to, activities that occurred between the start of the grant on March 11,
2009, through the start of our audit fieldwork on December 6, 2010.
Further, the criteria we audited against are contained in the Code of
Federal Regulation, OMB Circulars, and specific program guidance, such
as award documents and COPS 2009 Technology Program Grant Owner’s
Manual.

       We did not test internal controls for Sherwood taken as a whole or
specifically for the grant program administered by Sherwood. An
independent Certified Public Accountant conducted an audit of the city of
Sherwood’s financial statements. The result of this audit was reported in
the Single Audit Report for the year ending June 30, 2010. We reviewed
the independent auditor’s assessment to identify control weaknesses and
significant noncompliance issues related to Sherwood or the federal
programs it was administering, and assessed the risks that those findings
have on our audit.



                                   - 15 -
      In addition, we performed testing on grant expenditures, drawdowns,
and property management. We tested all four grant expenditures, all three
drawdowns, and all 17 items of accountable property (16 laptop computers
and fiber optic cable). However, we did not test the reliability of the
financial management system as a whole, nor did we place reliance on
computerized data or systems in determining whether the transactions we
tested were allowable, supported, and in accordance with applicable laws,
regulations, and guidelines.




                                  - 16 -
                                                                                                                  APPENDIX II


                                                        GRANTEE RESPONSE


                                                                                                                   1' 9 St P 21111
                                                                                                 Police Department
                                                                                                         20495 SW Borchers Drive
                                                                                                            Sherwood, OR 97 110
                                                                                                              Tel: 503-625-5 523
                                                                                                          Dispatch: 503-629-0 111
                                                                                                              Fax: 503-62 5-9553




                                September 13, 2011

                                David Gaschke
                                Regional Audit Manager
M;J/or
                                U.S Department of Justice
                                Office of the Inspector General
                                San Francisco Regional Audit Office
                                1200 Bayhill Drive, Suite 201
COUr'    oIors
                                San Bruno, CA 94066

  ,..                           Re: COPS Tech Grant 2009 CKWX0303

                                This correspondence is in response to the recommendations of the Draft
                                Audit Report of the referenced grant. It should be noted there were only
                                two findings , neither of which identified unauthorized expenditure or the
                                misapplication of grant funds . In fact, th e audit confirmed that the project
                                expenditures are consistent with the purpose and terms of the grant
                                application , well documented , and adequate controls are in place to ensure
                                integrity in the administration of the grant funds .

2009 Top Ten Selection          The following response addresses specific audit recommendations:

                                   1.    "Updates its Delegation of Contracting Authority to establish that the
                                        In/ormation Technology Director and Chief of Police are authorized to approve
                                        purchases in excess of $2~500. 00."

2007 18" Best Pl ace to Li ve   Concur. The Delegation of Contracting Authority required revision to reflect
                                the authority of the Information Technology Director and Chief of Police to
   Sherwood                     authorize expenditures of up to $10,000.00. The authority has been
                                granted through revision of administrative policy by the City Manager.
 2·0·0·6.
                                   2.   "Develop a comprehensive implementation plan that will help it accomplish its
                                        grant goal of establishing an interoperable wireless communication network
                                        before the grant end date. "

                                Concur: The project is relatively well defined , easily conceptualized , and
                                procurement was easily integrated into daily city administration . However,
                                the project will benefit from the management plans proposed in the draft
                                audit, including a work breakdown stru cture, procurement plan , and project
                                timeline. These project management tools have been completed and are
                                attached for reference . (See Attachments 1-3.)




                                                                  - 17 ­
          In summary, the project is within scope and there are no concerns relating to
          the financial management and control of the grant funds. The only audit
          finding concerning management of the project concerns the ability to
          complete the project by the end of the grant period . The audit concludes
          that lack of an adequate plan has delayed the project. It should be noted
          that many factors have contributed to delay of the project, including the
          lapse of a six month period between the grant start date of March 11 , 2009
          and the actual grant award of September 21, 2009; the unavailability of the
          700 MHz radio spectrum as the wireless platform; and unexpected problems
          with capacity and access of the fiber optic connection with Washington
          County.

          Although the project should be completed as outlined in the attached
          schedule; I believe it is prudent to request a six month extension of the grant
          period to allow for the full 36 months initially anticipated in the grant process .

           If there are any questions please feel free to contact me or Captain Jim
           Reed for additional information.

          Sincer~

         l r o t h, Chief of Police

          Cc:        Jim Patterson
                     USDOJ COPS
                     File




\\cos..<Jc2\useNeedJ'My DocumentslGrantslCOPS Tech Grant· USDOJ OIG Response.doc   Page 2 of2
Aulhor.
Crealedon 9/141201 1




                                                          - 18 ­
         r--r •   I   - , --   ... .




                                       Enhance Response to Crime through High Speed Mobile Data and Video Capacity - WBS


         l :-
            Upgraae -Mobile Computer                            i2 Establish High-Speed Wi reless
                                                                  :-                                            . IinKFiber OrnicConnectivity to
         :ICapac[ty .; $67,518                                  Network - H45,OOO                              Washin_g_~on~CQ.~Dty.:. Sll,482


                         1.1 Purchase Panasonic                            2.1 Develop wireless system                     3.1 Secure agreements with PGE
                         Toughbook MOe - $44,860 and                       plan, (includes specifications of               and Washington County for
                         Mobile Comm Routers - $20,000                     equipment, i.e. server,                         sharing fiber optics line and
                                                                           communications software,                        connections (Sole Source)
                                                                           antenna, and connectivity
                                                                           scheme)
                                                                                                                                                                (

                         1.2 Configure and install MOC &                   2.2 Purchase equipment, Server                  3.2 Establish fiber optics
                           Routers in patrol cars - $2,658                 and comm software - $10,000;                    connection - $12,482; installation
                                                                           wireless access points - $50,000;               of WDM equipment - $15,000;
- 19 ­




                                                                           and supplies (wire, cable,                      fiber optics switch - $5,000;and
                                                                           connectors) - $5,000                            police department firewall -
                                                                                                                           $5,000.



                         1.3 Test for enhanced speed and                   2.3 Contract for Installation of                3.3 Test access to Washington
                                       capacity with dispatch              fiber to wireless access points -               County Records and Dispatch
                                                                           $40,000
                                                                                                                                                                (
                         1.4 Monitor, analyze, and                         2.4 Contract for installation and               3.4 Monitor and assess remote
                         evaluate abilty of platform to                    cabling of wireless antenna at                  data access characteristics
                         support added techbnology                         access points - $40,000




                                                                           2.5 Review, select, and execute
                                                                           contracts
         2.6 Co mplete Insta ll ati on of
         cab ling, wiring, server and Pol ice


         2.7 Test connect ivity to city da t a
         applications and reco rds;


         2.8 Mon itor, analyze, and
         evaluate enhanced
         interope rab ili ty, data, and video
         tra nsm ission

                                                 (
- 20 ­




                                                 (
         F< -'--'r-C- e,v',- 'fV'S4I'c'r   L




                                                      PROCUREMENT MANAGEMENT PLAN
                                                   COMM UNITY ORIENTED POLI CING TE CHNOLOGY GRANT
                                                                   2009CKWX0303

                                                                                                                                           (
                                                                  CITY OF SHERWOOD
                                                                        OREGON
- 21 ­




                                                                      09-08-2011


                  TABLE OF CONTENTS
                  I NTROD UCTION
                  PROCUREM ENT MANAGEM ENT ApPROA CH ..              ... ........... ........ ......... ........ ... ...... ..... .... 2
                  PROCUREM EN T D EFINITION                                                                                                (
                  TY PE OF C ONTR ACT TO DE USED
                  CONTRACT Ap PROVAL P ROCESS ..                                                          . .... ............ ... .... 4
                  D EC ISION CR IT ERIA
                  V EN DOR M AN AGEMENT
                                                                                 l'ruj~~I I' r()cur~rn~nl ,\lal1agcrn~utl'lal1
                                                                                    L!..!.l of Sht·rwoml COl'S Tf~h {;raut


         INTRODUCTION

         This Procuremcnt Managcment Plan sets the procurement framework for this project. It wi ll serve as a gllide for managing
         procurement throughout the life of the project and will be updated as acquisition needs change. Thi s plan identifies and defines the
         items to be procured , the types of contracts to be used in support of this project, the contract approval process, and decision criteria.
         The importance of coordinat ing procurement activities, establishing firm contract deliverables, and metrics in measuring procurement
         activities is included.

         PROCUREMENT M ANAGEMENT ApPROACH

         The City ofShenvood Police Department Support Sect ion Captain wil l act as the Project Manager, (PM) and the In formation                   (
         Technology Direclor will provide oversight and management for all procuremcnt activities under this projcct necessary for th e
         successful completion of the project. The ITO will submit purchase requcsts and contracts to the Finance Department for execut ion.
         The Finance Department will assisl the ITO with vendor selection , purchasing, and the contracting process.
- 22 ­




         PROCUREMENT D EFIN ITION

         The following procurement items and/or sc rvices have been determi ned to be esse nt ial for project complet ion and success. The
         following Iist of items/services, justification , and time line are pending PMO review for submi ssio n to the contracts and purchasing
         deparunent:

               Item/Service                              Process                                   Needed By
         l'anasonic Mobile      RFQ • Compctitive Bid                                        Comp leted
         Computers

         Computer Server        Discretionary                                                12/31 /20 11
                                                                                                                                                          (

         Communications         RFQ . Competitive Bid                                        12/3112011
         Software

         Fiber Optics Sw itch   RFQ . Competit ive Bid                                       11 /30/2011


         Mobile Comm Routers    RFQ . Competit ive Bid                                       12/31 /2011



                                                                             2
                                                                                     l'rojl'cl l'rocun' mrrJl M:uIH!!rmrntl'lall
                                                                                         i1lt uf ShrrwuUlI CO l'S Tech Gram



         Wire less Access Points     RFQ - Competiti ve Bid                                      Done
                                     Awarded Pac Star for 23 Aruba AP 175

         Misc. Wire. Cable. &        Discretionary                                               PII     12115/20 11
         Connectors                                                                              Pl ll - 02/15/20 12

         Install Wireless            RFQ - Competit ive bid    Fixed cost                        Pll 12115/2011
         Antenna                                                                                 1'11 1- 02/29/20 12

         Install Fiber Optic to      RFQ - Compet iti ve bid - Fixed cost                        1'1- Done
         Wire less Antenna Sites     PI Install Awarded Frahler Electric SIO K                   PI I & Plll - 12/ 15/20 11                             (
         Fiber optic cable link to   RFQ    Competiti ve bid   Fixed cost                        11/30/20 11
         Washington Co.
- 23 ­




         In add ition to the above list of procurement items, the fo llowing indi vidual s are authorized to approve purchases for the project team :

                  Name                       Role
                  Craig Gibons               Finance Director
                  Jim Patterson              City Manager



         TYPE OF CONTRACT TO DE USED                                                                                                                    (
         Contracting for the installation of ( I) fiber optics cable to wireless antenna locations and (2) the wi ring and connection of wire less
         radios / antenna will be solicited by a public Request for Quote and awarded by competitive bid upon a fi xed cost basis. The
         connection of the fiber optic cab le to Washington County is a so le sou rce ven ture with Portland Genera l Electric, as connectivity
         requ ires sharing of the fib er optic line.




                                                                                 3
                                                                                     I'rojec t l'ruc u rl' llI cn! i\ IHII H)!CIllCrU l'l nn
                                                                                         { 'it" orSht'r\luotl CO l'S Tcc h t;ra ll !



         The ITO will work with the Finance Dcpartmcnt to define the item typcs, quantities, services and requircd de livery dates. The ITO
         wi ll then solicit bids from various vcndors in order to procure the items within the required time frame and at a reasonable cost under a
         time and mater ials contract once the vendor is se lected.


         CONT RACT A pl' ROV AL P ROCESS

         The !irst step in the contract approval process is to determine what items or services will require procurement from ou tside vendors.
         This will be determined by conducting a cost analysis on products or services which can be provided internall y and compared wit h
         purchase prices from vendors. Once cost analyses arc complete and thc list of items and services to be procurcd externall y is
         fina lized, the ITO will announce solic itations for outside vendors. Once so licitations arc complete and proposals have been received          (
         by all vendors the approva l process begins. The !i rst step of this process is to conduct a review of all vendor proposals to determine
         which meet the criteria established by the ITO and the Finance Department. Purchases less than $10,000 requ ire only the approval of
         the ITO; whereas, purchases greater than that amount must be approved by the City Manager. For larger purchase, the ITO wi ll
         provide recommendations to the City Manager on which con tract best meets the project needs and specificat ions. The Ci ty Manager
         may also consult with the project manager and Finance Department.
- 24 ­




         D EC ISION C RI TER IA

         The criteria for the se lect ion and award of procurement contracts unde r th is project wi ll be based on the fo ll owing decis ion criteria:
                 Abili ty orthe vendor to provide all items by the required delivery date
                 Quality
                 Cost
                 Expected deli very date
                 Comparison of outsourced cost versus in-sou rcing                                                                                            (
                 Past performance

         These criteria wi ll be measured by the ITO, Project Manager, and l or Finance Department Superv isor / Director. The ultimate
         decision wi l1 be made based on these criteria as we ll as availab le resources.




                                                                                 4
                                                                                       I'rojl'ct I'rU( Urcml'l1t ,\ lnu ngcm cnll'l uli
                                                                                           iJ.!!. uf Shl'rwood CO l'S T~~h Granl


         VENDOR MANAG EMENT

         The ITO is ultimate ly responsible for managing ve ndors. [n orde r to ensure the timely delivery and high quality of prod ucts from
         vendors the ITO and the Project Manager, will meet twice month ly with a representative of the Finance Department and each
         contractor to discuss the progress for each job, The meet ings can be in person or by teleconference. The purpose of these meetings
         wi ll be to review all documented speci lications for eac h product, conformance with the contract sc hed ul e, as well as to review the
         qua lity tcst find ings. This forum will provide an opportun ity to review eac h item ' s development or the service provided in o rder to
         ensure it complies with the requirements established in the project speci li cations. It also serves as an opportunity to ask questions o r
         modi fy contracts or requirements ahead of time in order to prevent delays in deli very and schedu le. The ITO will be responsible for
         scheduling this meetin g on a two week basis until all items are delivered and are detenl1ined to be acceptable.
                                                                                                                                                       (

         Project Procurement Plan Format provided by www.ProjctIMana£!cmclltDots.com
- 25 ­




                                                                                                                                                       (




                                                                                 5
         f"t"1"""'"-rc--t-V\.. r Y'Q v \-\   ::>
                                                                     COPS Tech Grant Timelin e; Mid-project thru 03-10-2012


                                                   Identify system requirements
                                                   Spec computers
                                                   RFQ & pu rchase comput ers
                                                   Install & configure MDCs


                                                                                                                                Continual


                Phase I: Network Plan
                                                   Identify wireless access pts                                                                        100%
                                                                                                                                                              (
                                                   Identify cabling & wi ri ng scheme - (Engineering in Process for Pit PIli)   08/01/11 11/30/11      40%
                                                          equipment needs (wireless radio / antenna, server, software)          08/01/11 11/30/11       50%
                                                   IConnect wi t h existing cabling to schoo ls                                                        100%
                                                   RFQ/ purchase 23 wireless radio / antenna                                                           100%
                Phase II
- 26 ­




                                                   RFQ & award technical services contract for connection of PII Radios /
                                                                                                                                09/21/11    09/30/11   15%
                                                   RFQ & award engineering contract for phase II & III                          08/25/11    10/30/11   40%
                                                   RFQ & award fiber opt ic cabling services contract to PII access pts         11/01/11    11/11/11    0%
                                                   Insta ll fiber opt ic to PII access pts                                      11/01/11    11/11/11    0%
                                                   install PII radio / antennas                                                 11/01/11    12/15/11    0%
                Phase III
                                                   RFQ & award Tech Sevices contract for w iring Pil i radios / antenna         09/21/11 09/30/11       0%
                                                   Execute agreement with ODOT - 99W radio mount sites (State ROW)              09/11/11 12/31/11       0%    (
                                                   Execute agreement w ith Wash. Co -TS Road rad io mount sites (County
                                                   ROW)                                                                         09/11/11    12/31/11    0%
                                                   RFQ & award purchase server, mobile routers, comm software                   09/01/11    12/31/11    0%
                                                   RFQ & award f iber cabling contract to 99W and TSR /access pts               01/01/12    01/30/12    0%
                                                   Insta ll server and configure software                                       01/01/12    01/30/12    0%
                                                   Install Cabling                                                              02/01/12    02/10/12    0%
                                                   Install radios / antennas                                                    02/10/12    02/29/12    0%
                                                   Test                                                                         10/01/11    03/16/12    0%
                                                   Monitor, analyze, and evaluate                                                    Continual
                             COPS Tech Grant Timeline; Mid-project thru 03-10-2012
                                                                                                           -,
         1/.

               Identify Fiber Opt ics Connection Points                              09/01/11   09/12/11   75%
               Secure written agreement for sha red fiber with PGE                   09/01/11   09/12/11   100%
               Secure written agreement with ODOT for fiber connection               09/01/11   10/31/11   10%
               Secure writte n agreement with WCCA for fiber connectio n             09/01/11   10/31/11    0%
               RFQ & Purchase WDM equipment                                          10/01/11   10/31/11   25%
               RFQ & Award for Technical Services to install WDM equ ipment and
               connect fiber                                                         11/01/11 11/30/11      0%
               Install WDM equipment and connect fiber                               12/01/11 12/15/11      0%
               Test                                                                  12/15/11 01/15/12      0%
               Monitor, analyze, and eva luate                                           Continual
                                                                                                                  (
- 27 ­




                                                                                                                  (
                                                                                        APPENDIX III


                  DEPARTMENT OF JUSTICE RESPONSE



                                                                                                 2 6 S£P ZOIl

             u.s. DE PARTMENT OF JUSTICE
             OFFICE OF COMMUNITY ORIENTED POL tC 1NG SERVICES

             Grant Operations Directorate! Audit Liaison Division
                                                                                   COPS
             14S N Street, N.E., \'V"ashingtO!1 , DC 20530



                                        MEMORANDUM

Via Facsimile and u.s. Mail
To:           David S. Gaschke
              Regional Audit Manager
              San Francisco Regional A\ dit Office

From:         Lashon M. Hilliarctd<\vVJ\
              Management Analyst
              Audit r.iai~on Divi~ion
              Community Oriented Policing Services (COPS)

Date;         September 2 1, 20 11

Subject:      Response to the Draft Audit Report for the City of Sherwood Oregon COPS Tech
              Grant, #2009CK WX0303


      This memorandum is in response to your August 26, 20 11 draft audit report for the
Shcnvood Police Department, Sherwood, Oregon. For ease of review, each audit
recommendation is slated in bold and underlined, followed by COPS' response to the
recommendation.

Recommendation t Update its Delegation of Contracting Authority to establish that the
Information Technology Director and Chief of Police are authorized to approve purchases
in excess of S2.S00.

       COPS concurs that the City of Sherwood and the Sherwood Po lice Department (SPD)
update its Delegation of Contracting Authority to reflect the authority of the Information
Technology Director and the Chief of Police to authorize expenditures of up to $] 0,000.00.

Discussion and Co mpleted Actions:

     After review of your report and the grantee's response, COPS has determined that the City
of Sherwood and SPD has updated its Delegation of Contracting Authority (DCA). The DCA
has been revised to authorize expenditures of up to $10,000 by the Information Technology
Dircctor and the Chief of Pol icc. The administrative policy update by the City Manager is
included on Page 4 of the Project Procurement Management Plan (See Auachment J).




ADVANCING PUBLIC SAFETY THR.OUGH COMMUN ITY POLICING

                                               "

                                              - 28 ­
David J. Gaschke, Regional Audit Manager, San Francisco Regional Audit Office
Page 2 of3
September 2 1, 201 1

Request

     Based on the discussion and completed actions, CO PS requests closure of
Recommendation I.

Recommendation 2 - Develop a comprehensive implementation plan that will help it
accomplish its grant goal of establishing an interoperable wireless communications
network before the gnmt end date.

      COPS concurs that SPD needs to develop a comprehensive implementation plan that wi ll
help it accomplish its grant goal of establi shing an interoperable wireless communications
network before the grant end date.

Discussion and C ompleted Actions:

      After review of your report and the grantee ' s response, CO PS has determined that SPD has
developed a succi nct and comprehensive management plan, including: 1) a work breakdown
structure, (2) comprehens ive procurement plan; and , (3) a project timeline in a del iberative effort
to ensure the City will accomplish the goal of estab li shing an interoperable wireless
comm unications network before the grant end date (See Aftacilmenl J/).

Request

    Based on the discussion and completed actions, COPS requests closure of
Recommendation 2, thereby closing the entire audit report.

      Jfyou have any additiona l questions, please do not hesitate to contact me at
(202) 514-6563.

Enc losures

cc:     Lou ise Duhamel (copy provided electronically)
        Acting Assistant Director
        DOJ Aud it Liaison Group

        Cynthia A. Bowie (copy provided electronically)
        Assistant Director
        COPS Aud it Liaison Division

          Nancy Dani els (copy provided electronically)
          Admin istrative Assistant
          Audit Liaison Di vision

          Audit File
          ORI: OR03406




                                               - 29 ­
                                               PROCUREMENT MANAGEMENT PLAN
                                            COMMUNITY ORIENTED POLICING TECHNOLOGY GRANT
                                                                              2009CKWX0303



                                                                           CITY OF SHERWOOD
                                                                                       OREGON
- 30 ­




                                                                                    09-08-2011


         TABLE OF CONTENTS
         INTRODUCTION .. .. .. .. .......                                           .. .....................   . ... . ..... ............ 2
         PROCUREMENT M ANAGEMENT ApPROACH ..                       .. ...........................                   . ................. 2
         PROCUREMENT D EFIN ITION                                                                                                ... ... 2
         TYPE OF CONTRACT TO BE USED.                        ...............              ..................          . ... ............ 3
         CONTRACT ApPROVAL PROCESS.. ..        ... ...........         ........ . .. ........                                  ......... 4
         D ECIS ION CR ITERIA                                                                                                           4
         VENDOR MANAGE~·lENT                                                                                                             5



                                                                                                                                                  .::J
                                                                                                                                                ""
                                                                                                                                              LI"
                                                                                                                                              • .;;l
                                                                                                                                                c
                                                                                                                                              --.
                                                                                  I'rojc(t I'roturrrncn! Mana ge ment I'lan
                                                                                      QJ..y of Sherwood COPS T ec h GrQ llt



         INTRODUCTION

         Thi s Procurement Management Plan sets the procurement framework for this project. It will serve as a guide for managing
         procurement throughout the life of the project and will be updated as acquisition needs change. This plan identifies and defines the
         items to be procured, the types of contracts to be uscd in support of this project, the contract approval process, and decision criteria.
         The importance of coordinating procurement activities, establishing firm co ntract deliverables, and metrics in measuring procurement
         activities is included.

         P ROCUREMENT MANAGEMENT APPROACH

         The City of Sherwood Police Department Support Section Captain will act as the Project Manager, (PM) and the lnfonnation
         Techno logy Director will provide oversight and management for all procurement activities under this project necessary for the
         successful completion of the proj ect. The ITD will submit purchase requests and contracts to the Finance Department for execution.
         The Finance Department will assist the fTD with vendor selection, purchasing, and the contracting process.

         PROCUREMENT D EFINITION
- 31 ­




         The following procurement items and/or services have been detennined to be essential for project completion and success. The
         fo llowi ng list of items/servi ces, justifi cation, and timeline are pending PMO review for submi ssion to the contracts and purchasi ng
         department:

              Item/Service                                Process                                 Needed Bv
         Panasonic Mobile        RFQ - Compet itive Bid                                      Completed
         Computers

         Computer Server         Discretionary                                               [2/31 /20 11


         Communicat ions         RFQ - Competitive Bid                                       12/3 11201 1
         Software

         Fiber Optics Switch     RFQ - Competitive Bid                                       11/3012011


         Mobile ComlTI Routers   RFC • Competitive Bid                                       12/31120 11



                                                                              2
                                                                                  t'rojl'C( Procnrcrnenl1\lanagcIlIcnl ptan
                                                                                      Cit" orShcnmoi.l COPS Tech Granl




         Wireless Access Points       RFQ - Competiti ve Bid                                 Done
                                      Awarded Pac Star ror23 Aruba AP175

         Mise. Wire, Cable, &         Discretionary                                          Pll 12/ 1512011
         Connectors                                                                          p1Jl - 02 / 1512012

         Instal! Wireless             RrQ - Compet itive bid - Fixed cost                    PIl- 12/ 15/2011
         Antenna                                                                             PIll - 02/29/2012

         Install Fiber Optic to       RFQ - Competitive bid Fixed cost                       PI Done
         Wireless Antenna Sites       PI Ins!all Awarded Frahler Electric S 1OK              PII & PIll - 12/ 15/2011

         Fiber optic cab le link 10   RFQ    Competitive bid    Fixed cost                   11 /30/2011
         Washington Co.
- 32 ­




         In addition to the above list o[procurement items, the following individuals are authorized to approve purchases for the project team:

                  Name                        Role
                  Craig Gibons                Finance Director
                  Jim Patterson               City Manager


         TYPE OF CONTRACT TO BE USED

         Contracting for the installation of (1) fiber optics cable to wireless antefma locations and (2) the wiring and connection of wireless
         radios / antenna will be solicited by a public Request for Quote and awarded by competitive bid upon a fixed cost basis. The
         connection of the tiber optic cable to Washington County is a sale source venture with Portland General Electric, as connectivity
         requires sharing o[the fiber optic line.
                                                                                 Project ProclITfIllCnl " l~n agrmc nll'l a n
                                                                                    Ci l'- orShcrwootl CO l'S Tech Grant


         The ITO will work with the Finance Department to define the item types, quantities, services and required delivery dates. The lTD
         will then solic it bids from various vendors in order to procure the items within the required lime frame and at a reasonable cost under a
         time and materials contract once the vendor is selected.


         CONTRACT ApPROVAL PROCESS

         The first step in the contract approval process is to determine what items or services will require procurement from outside vendors.
         This will be determined by conducting a cost analysis on products or services which can be provided intemally and compared with
         purchase prices from vendors. Once cost analyses are complete and the list of items and services to be procured externally is
         finali zed , the ITO will announce solicitations for outside vendors. Once so licitations are complete and proposals have been received
         by all vendors the approval process begins. The first step of this process is to conduct a review of all vendor proposals to determine
         which meet the criteria established by the ITO and the Finance Department. Purchases less than $ 10,000 require only the approval of
         the ITO; whereas, purchases greater than that amount must be approved by the City Manager. For larger purchase, the ITO will
         provide recommendations to the City Manager on which contract best meets the project needs al1.d specifications. The City Manager
         may also consult wi th the project manager and Finance Department.
- 33 ­




         DECISION CRITERIA

         The criteria for the selection and award of procurement contracts under this project will be based on the following decision criteria:
                 Ability of the vendor to provide all items by the required delivery date
                Quality
                Cost
                Expected delivery date
                Comparison of outsourced cost versus in-sourcing
                Past performance

         These criteria will be measured by the ITO , Project Manager, and / or Finance Department Supervisor / Director. The ultimate
         decision wi ll be made based on these criteria as well as available resources.

         VENDOR MANAGEMENT




                                                                             4
                                                                                      l'rojcCll'roc"rcmeru i\Ianag(l11cnl I'lan
                                                                                          Cih ofSlrcrwood CO l'S Trch Granl


         The ITO is ultimatel y responsible for managing vendors. In order to ensure the timely delivery and high quality of products from
         vendors the ITO and the Project Manager, will meet twice monthly with a representative of the Finance Department and each
         contractor to discuss the progress for each job. The meetings can be in person or by teleconference. The purpose of these meetings
         will be to review all documented specifications for each product, conformance with the contract schedule, as well as to review the
         quality test findings. This forum will provide an opportunity to review each item's development or the service provided in order to
         ensure it complies with the requirements established in the project specifications. It also serves as an opportunity to ask questions or
         modify contracts or requirements ahead of time in order to prevent delays in delivery and schedule. The ITO wi ll be responsible for
         scheduling this meeting on a two week basis until all items are delivered and are determined to be acceptable.



         Project Procurement Plan Fonnat provided by www.ProjccIMana<·ementDocs.com
- 34 ­
                                           COPS Tech Grant Timelin e; Mid-project thru 03-10-2012


                                  system requirements




                                                                                                         Continua l




                                                                                                                                 100%
                         Identify cabling & wiring scheme - (Engineering in Process for PH PIli)         08/01/11 11/30/11       40%

                              equ ipment needs (wireless radio / antenna, server, software)              08/01/11 11/30/11       50%
                         Connect with existing cabling to schoo ls                                                               100%
                         RFQ / purchase 23 wire less radio / antenna                                                             100%
         Phase II
                         RFQ & award techn ical services contract for connection of PI! Radios I
- 35 ­




                                                                                                         09/21/11 09/30/11       15%
                         RFQ & award engineering contract for phase II & III                             08/25/11 10/30/11       40%
                         RFQ & award fiber optic cabling services contract to Pit access pts             11/01/11 - 11/11/11      0%
                         Install fiber optic to PII access pts                                           11/01/11 11/11/11        0%
                         install PI! radio / antennas                                                    11/01/11 ....12/15/11    0%
         Phase III
                         RFQ & award Tech Sevices contract for wiring Pili rad ios / antenna             09/21/11 09/30/11        0%
                         Execute agreement with ODOT - 99W radio mount sites (State ROW)                 09/11/11 12/31/11        0%
                         Execute agreement with Wash. Co -TS Road radio mount sites (County
                                                                                                         00/11/11     12/31/11    0%
                              & award purchase server, mobile routers, comm softwa re                    09/01/11     12/31/11    0%
                              & award fiber cabling contract to 99W and TSR /access pts                  01/01/12     01/30/12    0%
                         Install server and configure software                                           01/01/12     01/30/12    0%
                         Install Cabling                                                                 02/01/12     02/10/12    0%
                         Install radios / antennas                                                       02/10/12     02/29/12    0%
                     Test                                                                                10/01/11     03/16/12    0%
                     Monitor, analyze, and evaluate                                                           Continual
                     ,                                                                             N··
                              COPS Tech Grant Timel ine; Mid- proj ect thru 03-10-2012

         '1-'
                Identify Fiber Optics Connection Points                                  09/01/11 09/12/11   75%
                Secure written agreement for shared fiber with PGE                       09/01/11 09/12/11   100%
                Secure written agreement with ODOT for fiber connection                  09/01/11 10/31/11    10%
                Secure written agreement with WCCA for fiber connection                  09/01/11 10/31/11    0%
                I
                RFQ & Purchase WDM equipment                                             10/01/11 10/31/11   25%
                RFQ & Award for Technica l Services to insta ll WDM equ ipment and
                connect fiber                                                            11/01/11 11/30/11    0%
                Install WDM equipment and connect fiber                                  12/01/11 12/15/11    0%
                Test                                                                     12/15/11 01/15/12    0%
                Monitor, analyze, and evaluate                                               Continua l
- 36 ­
                           Enhance Response to Crime through High Speed Mobile Data and Video Capacity - WBS


         :l :-UpgradeMobile Computer                        ,2.- Establish-High"Speed                          '3. Link-FiberOptic"co nnectivity to
         ic,ap,!,!cjty.: $6.7,518.                        ' Wi re l~, s~ Ne~work - $14.5,00q                   • in.gto n J~:g.u I"!~'y .:. $~ 7,482
                                                                                                               Wash
                                                                      I

                       1.1 Purchase Panasonic                             2.1 Develop wireless system                       3.1 Secure agreements with
                       Toughbook MOe - $44,860 and                        plan, (includes specificat ions of                 PGE and Washington County fo r
                       Mobile Comm Routers­                               equipment, i.e. server,                           sharing fiber optics line and
                       $20,000                                            communicat ions software,                         connections (Sale Source)
                                                                          antenna, and connectivity
                                                                          scheme)


                         1.2 Configure and insta ll MOe                   2.2 Pu rchase equ ipment,                         3.2 Establish fiber optics
                            & Routers in patro l cars­                    Server and comm software­                         connect ion - $12,482;
                                     $2,658                               $10,000; wire less access points -                installa tion of WDM equ ipment
- 37 ­




                                                                          $50,000; and supp li es (wire,                    - $15,000; fiber optics switch­
                                                                          cable, connectors) - $5,000                       $5,000;and po lice department
                                                                                                                            firewa ll - $5,000.




                          1.3 Test for enhanced speed                     2.3 Contract for Installation of                  3.3 Test access to Washington
                           and capac ity with dispatch                    fiber to wire less access points -                County Records and Dispatch
                                                                          $40,000

                       1.4 Monitor, analyze, and                          2.4 Contract for installation                     3.4 Mon itor and assess re mote
                       eva luate abilty of platform to                    and cab ling of wi reless antenna                 data access cha racteristics
                       support added techbnology                          at access points - $40,000




                                                                      2.5 Review, select, and execute
                                                                      contracts
         2.6 Complete Installation of
         cabling, w iring, server and


         2.7 Test connect ivity to city
         data app lications and records;


         2.8 Mon itor, analyze, and
         eva luate en hanced
         interoperabil ity, data, and
         video transmission
- 38 ­
                                                               APPENDIX IV

                  OFFICE OF THE INSPECTOR GENERAL
                 ANALYSIS AND SUMMARY OF ACTIONS
                   NECESSARY TO CLOSE THE REPORT

       The U.S. Department of Justice Office of the Inspector General, Audit
Division, provided a draft of this audit report to Sherwood and COPS.
Sherwood’s and COPS’ responses are incorporated in Appendices II and III
of this final report, respectively. The following is our analysis of the
responses and summary of actions necessary to close the report.

Recommendations:

   1. Resolved. COPS concurred with our recommendation and stated that
      Sherwood had updated its Delegation of Contracting Authority.
      Sherwood concurred with our recommendation and acknowledged that
      its Delegation of Contracting Authority required revision to reflect the
      authority of the Information Technology Director and the Chief of
      Police to authorize purchases of up to $10,000. Sherwood stated that
      authority has been granted through a revision of its administrative
      policy by the City Manager. However, neither Sherwood nor COPS
      provided us with any documentation to support the revision to
      Sherwood’s Delegation of Contracting Authority. Therefore, this
      recommendation can be closed when COPS provides us with evidence
      that Sherwood’s Delegation of Contracting Authority has been revised
      to give the Information Technology Manager and the Chief of Police
      the authority to make purchases up to $10,000.

   2. Closed. COPS concurred with our recommendation and determined
      that Sherwood has developed a succinct and comprehensive
      management plan for establishing an interoperable wireless
      communications network. Sherwood concurred with our
      recommendation and acknowledged that the grant-funded project
      would benefit from the management plan proposed in the draft audit,
      including a work breakdown structure, procurement plan, and project
      timeline. Further, Sherwood provided with its response documentation
      showing a work breakdown structure, procurement plan, and project
      timeline with sufficient detail to assist Sherwood in accomplishing its
      grant goals. We reviewed the planning documents that Sherwood
      submitted with its response and determined these documents
      adequately address our recommendation. Therefore, this
      recommendation is closed.



                                    - 39 -
